Memorandum No. D-2010-RAM-006      May 21, 2010




        American Recovery and Reinvestment Act
          Project—Airfield Repairs at Naval Air
              Station/Joint Reserve Base,
                     New Orleans
Additional Information
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
NAS/JRB                       Naval Air Station/Joint Reserve Base
NAVFAC                        Naval Facilities Engineering Command
OMB                           Office of Management and Budget
PWD                           Public Works Department
QMAD                          Quantitative Methods and Analysis Division
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGIN IA 22202-4704          MAY 212010




MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND, SOUTHEAST

SUBJECT: American Recovery and Reinvestment Act Project- Airfield Repairs at
         Naval Air Station/Joint Reserve Base, New Orleans (Memorandum
         No. D2010-RAM-006)

We are providing this report for your information and use. We performed this audit in
response to the requirements of Public Law 111-5, The American Recovery and
Reinvestment Act of 2009. We considered management comments on a discussion draft
of this rep01i in preparing the [mal report. No additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Timothy Wimette at (703) 604-8876 (DSN 664-8876).



                                         t!ll'
                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Supp01i
 
Memorandum No. D2010-RAM-006 (Project No. D2010-D000LH-0062.000)          May 21, 2010


               Results in Brief: American Recovery and
               Reinvestment Act Project—Airfield Repairs
               at Naval Air Station/Joint Reserve Base,
               New Orleans

What We Did
Our overall objective was to evaluate DOD’s
implementation of the American Recovery and
Reinvestment Act of 2009, February 17, 2009.
Specifically, we determined whether Navy
personnel adequately planned, funded, executed,
and had personnel and procedures in place to
track and report project RM03-08 for airfield
repairs at Naval Air Station (NAS)/Joint
Reserve Base (JRB) New Orleans to ensure the
appropriate use of Recovery Act funds.
                                                      Poor Drainage Along Runways
What We Found                                         at NAS/JRB New Orleans
We determined that Project RM03-08 was
justified and met the Recovery Act goals for
accountability and transparency. Naval
Facilities Engineering Command Southeast and
the Public Works Department at NAS/JRB New
Orleans planned, funded, executed, and had
personnel and procedures in place to track and
report the project as required by the Recovery
Act.

Although the contract initially omitted six
required Federal Acquisition Regulation
clauses, contracting personnel subsequently
issued contract modifications to include the
clauses.
                                                      Missing Runway Lights at 

What We Recommend                                      NAS/JRB New Orleans 

This report contains no recommendations.

Management Comments
Although no comments were required, the
Public Works Department at NAS/JRB New
Orleans commented on the discussion draft. We
clarified the final report based on these
comments.

                                                  i
Introduction
Objective
Our overall objective was to evaluate DOD’s implementation of the American Recovery
and Reinvestment Act of 2009 (Recovery Act), February 17, 2009. We reviewed the
implementation of the DOD Recovery Act plans at the Service and installation levels to
determine whether individual projects were managed to achieve the accountability and
transparency goals of the Recovery Act. Specifically, we determined whether Naval
Facilities Engineering Command (NAVFAC) Southeast and the NAVFAC Southeast
Public Works Department at Naval Air Station (NAS)/Joint Reserve Base (JRB) New
Orleans (the PWD) adequately planned, funded, executed, tracked, and reported
project RM03-08 for airfield repairs at NAS/JRB New Orleans to ensure the appropriate
use of Recovery Act funds. See the appendix for a discussion of the audit scope and
methodology related to the audit objective.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DOD received approximately $6.8 billion1 in Recovery Act funds to be used for projects
that support the Act’s purposes. In March 2009, DOD released expenditure plans for the
Recovery Act, which list DOD projects that will receive Recovery Act funds. The
Department of the Navy received $1.928 billion in Recovery Act funds for Operations
and Maintenance; Military Construction; and Research, Development, Test and
Evaluation. Table 1 provides specific amounts allocated to each appropriation.




1
  The $6.8 billion does not include $4.6 billion for the U.S. Army Corps of Engineers or $555 million for
the Homeowners Assistance Fund.


                                                     1

Table 1. Department of the Navy Program-Specific Recovery Act Appropriations
                   Appropriations                     Amount (millions)
 Operations and Maintenance                                  $916
 Military Construction                                        937
 Research, Development, Test and Evaluation                    75
   Total                                                   $1,928

Of the $1.928 billion appropriated to the Department of the Navy, approximately
$14.9 million (Operations and Maintenance) was allocated to support the repair of
airfield lighting and pavement at NAS/JRB New Orleans. The project consists of
repairing the drainage system, replacing runway lights and signs, replacing electrical
conduits and circuits, and repaving shoulders and other damaged areas of the runways
and taxiways.

NAS/JRB New Orleans is one of three Joint Reserve Bases in the country. NAS/JRB
New Orleans serves and houses commands from various branches of the Armed Services,
including the Army, Navy, Marine Corps, Coast Guard, and Louisiana National Guard.
NAS/JRB New Orleans’ primary mission is to provide a high-quality training
environment for active duty and Reserve Components of all branches of the Armed
Services.




                                            2

Audit Results
We determined that project RM03-08 met the goals for accountability and transparency
as provided in the Recovery Act. The project was justified, and NAVFAC Southeast and
the PWD at NAS/JRB New Orleans planned, funded, and executed the project in order to
achieve the goals of the Recovery Act. In addition, NAS/JRB New Orleans had
personnel and procedures in place to track and report the project as required by the
Recovery Act. Although the contract initially omitted six Federal Acquisition Regulation
(FAR) clauses required by Recovery Act implementation guidance, contracting personnel
issued contract modifications to include the clauses.

Planning
NAVFAC Southeast and the PWD appropriately planned the project, which we
determined to be justified. According to NAVFAC Southeast personnel, after the PWD
initiated the project to repair and replace airfield lighting, NAVFAC Southeast
determined the need for additional airfield repairs. Project planning documents stated
that NAS/JRB New Orleans maintains a 24-hour operational capability and is the only
airfield in New Orleans that supports Federal emergency operations during catastrophic
storm events. When it rains, water collects along the shoulders of the runways and
taxiways, causing erosion, settlement of the shoulders, and shorts and outages to the
electrical lighting system. Planning documents also stated that the runway lights are
outdated and do not meet safety standards. Moreover, replacement parts for the runway
lights are no longer available. We determined that the project will satisfy a justified need
to provide safe runways and taxiways for the Navy, Marines, Air National Guard, Army,
and Coast Guard.

NAVFAC personnel used project blueprints and cost estimating systems to develop a
detailed cost estimate and complete an economic analysis. The Regional Engineer
approved the final cost estimate and submitted it to the Commander, Naval Installation
Command. The economic analysis considered possible alternatives to airfield repairs,
such as status quo, leasing, and new construction. Based on the economic analysis,
NAVFAC personnel concluded that restoration and modernization was the most cost-
effective method to provide continued and safe airfield operations at NAS/JRB New
Orleans.

Funding
The Navy distributed Recovery Act funds to the project in a timely manner and the
funding documents properly identified a Recovery Act designation. Funding documents
showed that the Commander, Navy Region Southeast transferred funds to NAVFAC
Atlantic on August 24, 2009, and the contract was awarded on August 28, 2009.
NAVFAC Southeast awarded the contract for approximately $2.4 million more than
estimated in DOD’s expenditure plan for Recovery Act projects. NAVFAC Southeast
personnel attributed the additional cost to underestimating both the amount of runway
and taxiway shoulder repair work and the complex phasing plan required for that repair
work to maintain continuity of operations on active runways. To obtain additional


                                             3

funding, the Commander, Naval Installation Command used funds from a future
Recovery Act project. The Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller) approved this process, which was in accordance with
May 2009 guidance from the Office of the Under Secretary of Defense (Comptroller).

Execution
NAVFAC Southeast adequately performed the initial execution of the project. In our
evaluation of initial project execution, we determined whether the contract was
competitively solicited and awarded with full transparency, and whether it contained the
clauses the FAR requires for Recovery Act contract actions.

Contracting personnel at NAVFAC Southeast awarded the contract competitively at a
firm fixed price of approximately $14.9 million in August 2009, 4 months earlier than the
milestone set by DOD’s expenditure plan for the Recovery Act. Contracting personnel at
NAVFAC Southeast issued the request for proposal competitively, and four companies
responded. The source selection board at NAVFAC Southeast evaluated the proposals
based on price and five technical factors. The source selection board determined that
Atlantic Electric, LLC provided the best value to the Government because it had the
highest overall technical rating and the lowest price. Atlantic Electric, LLC is a certified
small business and, based on information from the Central Contractor Registration Web
page and the Excluded Parties List System, was approved to contract with the
Government.

Contracting personnel properly recorded contract actions to facilitate full transparency.
Office of Management and Budget (OMB) Memorandum M-09-15, “Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
April 3, 2009 describes requirements for reporting Recovery Act funded actions in the
Federal Procurement Data System and publicizing actions on Federal Business
Opportunities. Contracting personnel properly reported the contract award in the Federal
Procurement Data System and announced the solicitation and award on the Federal
Business Opportunities Web site.

The contract originally omitted six FAR clauses; however, PWD personnel modified the
contract to include these clauses. Contracting personnel at NAVFAC Southeast
incorporated most of the FAR clauses required by Recovery Act implementation
guidance, including those for whistleblower protection, reporting, the Davis-Bacon Act,
and the Buy American Act. However, the contract did not include FAR clause 52.244-6,
“Subcontracts for Commercial Items.” In addition, we identified five missing contract
clauses required by FAR Part 23, “Environment, Energy, and Water Efficiency,
Renewable Energy Technologies, Occupational Safety, and Drug-free Workplace.” FAR
Part 23 prescribes policies and procedures for protecting and improving the quality of the
environment. According to OMB Memorandum M-09-15, agencies must comply with




                                             4

the requirements of FAR Part 23 when acquiring supplies and services2 using Recovery
Act funds. The contract was missing the following clauses required by FAR Part 23:

          FAR 52.223-2, “Affirmative Procurement of Biobased Products Under Service
           and Construction Contracts;”
          FAR 52.223-9, “Estimate of Percentage of Recovered Material Content for EPA
           Designated Items;”
          FAR 52.223-14, “Toxic Chemical Release Reporting;”
          FAR 52.223-15, “Energy Efficiency in Energy-Consuming Products;” and
          FAR 52.223-17, “Affirmative Procurement of EPA-designated Items in Service
           and Construction Contracts.”

Without these clauses, the Navy could not hold contractors accountable for all Recovery
Act requirements, and the project’s completion may not protect and improve the
environment. Since we identified this issue, PWD personnel modified the contract to
include the six missing clauses.

Tracking and Reporting
Although airfield construction had not started at the time of our review, the PWD at
NAS/JRB New Orleans had adequate personnel and procedures in place to track and
report the project. The PWD assigned an engineering technician and a construction
manager to monitor project schedules, address nonconformances, and ensure the
contractor meets contract requirements.

In addition, the contracting officer reviewed the information reported by the contractor to
ensure the contractor reported required Recovery Act information. FAR clause
52.204-11, “American Recovery and Reinvestment Act – Reporting Requirements,”
requires contractors for Recovery Act projects to report project information at
http://www.FederalReporting.gov. Atlantic Electric, LLC reported the project’s total
dollar value, project status, and sub-contract awards for the first quarter of FY10.

Conclusion
We concluded that project RM03-08 to repair airfield lighting and pavement at NAS/JRB
New Orleans filled a justified need. NAVFAC Southeast officials and the Public Works
Department at NAS/JRB New Orleans adequately planned, funded, and executed the
project in accordance with the accountability and transparency goals of the Recovery Act.
In addition, the Public Works Department at NAS/JRB New Orleans had personnel and
procedures in place to track and report the project as required by the Recovery Act.
Although the contract initially omitted six FAR clauses, PWD personnel modified the
contract to include these clauses. Therefore, this report contains no recommendations.




2
    According to the definition of an acquisition in FAR Subpart 2.101, construction is a service.



                                                        5

Appendix. Scope and Methodology
We conducted this performance audit from October 2009 through May 2010. We
interviewed personnel from NAVFAC Southeast and the Public Works Department at
NAS/JRB New Orleans. We reviewed documentation including the official contract file,
DD Forms 1391, economic analysis, and cost estimates. We reviewed processes for tracking
and reporting Recovery Act projects. We also toured the airfield.3 We reviewed Federal,
DOD, and Navy guidance, and compared this guidance with our audit results.

We generally complied with government auditing standards. We followed the audit
documentation and fieldwork standards for this audit. However, due to the unique
requirements of the Recovery Act, along with time limitations for executing this audit, we
did not fully comply with some planning and reporting standards. Specifically, we did not
fully comply with planning standards on the assessment and reduction of fraud risk, and
reporting standards on internal control deficiencies. Generally accepted government auditing
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions based on our audit objectives. We
believe omitting some aspects of these standards did not limit our ability to conclude
accurately on our audit objectives.

Use of Technical Assistance
Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DOD Office of Inspector General analyzed all DOD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects
and locations using a modified Delphi technique, which allowed them to quantify the risk
based on expert auditor judgment and other quantitatively developed risk indicators.
Initially, QMAD selected 83 projects with the highest risk rankings; auditors chose some
additional projects at the selected locations.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, and National Guard units.




3
    At the time of our review, repairs on the airfield had not yet started.


                                                          6

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                         7

 
 
